T
he Library of Congress
Office of the Inspector General




Semiannual Report to the Congress
                   September 30, 2008
                      Main entrance to the Library of Congress’ Thomas Jefferson Building, showing the Neptune fountain. Photo by Carol M. Highsmith




Cover: Thomas Jefferson Building, Interior Dome of the Main Reading Room. Photo by Carol M. Highsmith


The paintings in the dome’s center by Edwin Blashfield represent human understanding. The figures in
the collar of the dome represent countries, or epochs, which Blashfield felt contributed most to American
civilization. America is represented by the field of science. The face of the figure representing America, in
the ten o’clock position, was modeled on that of Abraham Lincoln. In front of him is an electric dynamo,
representing the American contribution to advances in harnessing the power of electricity.
  October 30, 2008


A Message From the Inspector General

I am pleased to present our Semiannual Report to the Congress for the period ended September 30, 2008.


In the last six months we prepared reports on mail handling and its effects on collections and security, Disbursing Office
controls, workforce diversity, copyright processing, the Federal Employees’ Compensation Act Program, and fixed assets.
We also issued a report on the 2007 financial statements of the Open World Leadership Center, a separate legislative
branch agency housed at the Library of Congress. We followed up on prior audits of emergency preparedness and space
management, and conducted investigations on topics such as misuse of library computers and networks, and identity theft.
Finally, in the last six months, we issued a capping report and testified before the House Committee on Oversight and
Government Reform, Subcommittee on Federal Workforce, Postal Service, and the District of Columbia, on workforce
diversity as part of a legislative branch-wide review.


In the next six months, we will report on in-progress reviews on the protection of personally identifiable information,
information technology strategic planning, collections security, human resources operations, and the financial statements
of the Library and Madison Council Fund.


We commend the Library for implementing internet filtering capabilities during this reporting period to block employee
access to inappropriate Web site content. We also note that the Library’s managers implemented 29 of our recommendations
during the period, demonstrating commitment to continued improvement.


We appreciate the cooperative spirit Library managers and staff have shown during and following our reviews.




Karl W. Schornagel
Inspector General
          Table of Contents


          Introduction and Definitions............................................................................................................. 1
          Audits, Surveys, and Reviews............................................................................................................                                 2
                 Mail Handling..................................................................................................................................................   2
                 Disbursing Office............................................................................................................................................     3
                 Federal Employees’ Compensation Act Program ..............................................................................................                        4
                 Diversity Management Program.......................................................................................................................               4
                 Diversity in the Legislative Branch...................................................................................................................            5
                 Open World Leadership Center Fiscal Year 2007 Financial Statements...........................................................                                     6
                                                                                                                                                                   7
                 Copyright Service..........................................................................................................................................
              Follow-up: Space Management ........................................................................................................................ 9
              Follow-up: Emergency Preparedness Program................................................................................................... 9
          Investigations........................................................................................................................................ 12
              Significant Criminal and Administrative Investigations..................................................................................             14
          Unimplemented Recommendations.................................................................................................                                           17

          Implemented Recommendations.......................................................................................................                                       22

          Funds Questioned or Put to Better Use.........................................................................................                                           26

          Instances Where Information or Assistance Requests Were Refused....................................                                                                      27
          Status of Recommendations Without Management Decisions................................................                                                                   27

          Significant Revised Management Decisions.................................................................................                                                27

          Significant Management Decisions With Which OIG Disagrees.............................................                                                                   27

          Follow-up on Prior Period Recommendations ............................................................................                                                   27

          Other Activities..................................................................................................................................                       28
                 Inspector General Participates in Conference on Collections Security.............................................................                                 28
                 Inspector General Testifies on Workforce Diversity.......................................................................................                         28
                 Congress Requests Public Access to OIG Reports..........................................................................................                          28
                 Fixed Asset Control System............................................................................................................................            29
          Review of Legislation and Regulations.........................................................................................                                           30




Facing Page: Sculpture of Neptune, Roman God of the Seas, and Tritons blowing Conch Shells by Roland Hinton Perry.
Photo by Carol M. Highsmith
We perform many types of services; among them:


Attestations,       which involve examining, reviewing, or applying agreed-
upon procedures on a subject matter, or an assertion about a subject matter.
Attestations can have a broad range of financial or nonfinancial focuses, such
as the Library’s compliance with specific laws and regulations; assertions or
assumptions made in a cost/benefit, breakeven, or requirements analysis;
validation of performance against performance measures; or reasonableness of
cost.


Financial Audits,            which determine whether financial statements
present fairly the financial position, results of operations, and cash flows in
conformity with generally accepted accounting principles, and whether an
entity has adequate internal control systems and complies with applicable laws
and regulations.


Investigations,        which are conducted based on alleged or suspected
wrongdoing by agency employees, contractors, recipients of financial assistance,
and others responsible for handling federal resources. Violations of Library
regulations or fraud committed against the Library can result in administrative
sanctions and/or criminal or civil prosecution.


Nonaudit Services, which are equivalent to consulting services in the
private sector and usually involve providing advice or assistance to Library
managers without necessarily drawing conclusions, or making recommendations.
Auditors are cautious when performing nonaudit services because providing
them may jeopardize the independence needed to later audit that subject area.

Performance Audits,             which address the efficiency, effectiveness, and
economy of the Library’s programs, activities, and functions; provide information
to responsible parties to improve public accountability; facilitate oversight and
decision making; and initiate corrective action as needed.
Introduction and Definitions

The mission of the Office of the Inspector General is to promote
economy, efficiency, and effectiveness by detecting and preventing
waste, fraud, and abuse.
To accomplish our mission, we conduct audits, reviews, and investigations.


Our philosophy is to be proactive. We believe this approach results in a more efficient use of resources by detecting
and preventing problems early. Accordingly, we are following several key projects throughout the Library and rendering
assistance and making recommendations as needed.


Our staff is educated and certified in various disciplines. We are, collectively, four certified public accountants, two
attorneys, one certified internal auditor, four special agents, one investigator, one Master of Library Science, and other
highly qualified staff.


Our goals, objectives, strategies, and performance indicators can be found in our Strategic Plan, available on our Web site
at www.loc.gov/about/oig.




                                                                                       Semiannual Report to the Congress 1
       Audits, Surveys, and Reviews
       Library-Wide                                                     bind, or exhibit the collections. Our tests confirmed
                                                                        that significant damage occurs to some items, primarily
       Mail Handling and Its Effects
       on Collections and Security                                      from USPS processing. Damage such as discoloration,
                                                                        brittleness, and warping in CDs occurred in 20 percent of
       Audit Report No. 2007-PA-104
       September 2008                                                   our mailed test items. Serials, at 33 percent, sustained the
                                                                        most damage.
       Mail service is a critical element of the Library of Congress’
       diversified operations. Service and Support units depend
       on timely delivery of undamaged mail. In particular,
       Copyright deposits depend largely on material mailed-
       in and the acquisitions sections depend on mailed-in
       international materials. In the first eight months of 2007,
       the Library received, on average, more than 50 thousand
       pieces of mail per day.


       After the 2001 discoveries that anthrax-contaminated
       letters were mailed to the U.S. Senate, an off-site process
       was established to identify and address possible terrorist
       attacks on the U.S. Congress and the Library through
       the mail system. This approach has proved successful
       in protecting against possible attacks through the mail,
       but its success has come with significant costs, including
       irreversible damages and delays in mail delivery. Office
       Systems Services (OSS) is responsible for administering
       mail service on the Library’s behalf.

       We conducted an audit of the Library’s mail delivery
       operations. Our objectives were to evaluate the timeliness
       of mail delivery and quality of mail service. To evaluate the
       quality of mail service, we conducted two separate tests,
       which assessed both timeliness of mail delivery and damage
       to incoming mail. Our tests focused on mail processed
       both by a contractor and the U.S. Postal Service (USPS)
       for Congressional and Library offices on Capitol Hill.           Second, the Library should work to improve mailing
                                                                        instructions in Library units’ Web sites and other
       The Library Should Initiate Actions that Will Protect the
                                                                        publications which do not provide adequate guidance.
       Collections and Reduce Mail Damage—Although the
       quality of the Library’s mail service is generally good, the     Finally, because mail-damaged copyright deposits have
       program could improve through attention to three areas.          increased costs and lengthened the copyright registration
       First, because the long-term effects of security processing      process, the Library and U.S. Copyright Office should
       on mail items have not been determined, the Library should       consider alternative means to effect security in mail
       work to identify and assess them. Greater understanding          processing or modify mailing procedures for incoming
       of the process’ effects will likely impact how staff handle,     items.



                                                                                           Above: Detail of Dolphin in Neptune Fountain in Front of
                                                                                           Thomas Jefferson Building by Roland Hinton Perry. Photo
                                                                                           by Carol M. Highsmith
2   Semiannual Report to the Congress
Security Gaps in the Mail Handling Process Need to be           Office of the Chief Financial Officer
Closed—Notwithstanding security screening procedures
                                                                Disbursing Office Controls, While
applicable to incoming Library mail items, items addressed      Strong Overall, Can be Improved
and delivered to one of the Library’s remote locations
                                                                Audit Report No. 2007-PA-103
entirely avoid those procedures. Additionally, this security    September 2008
gap has become recognized and is frequently intentionally       Vital to the public’s trust in the federal government is
                                       exploited. Because       unquestionable integrity in the management of public funds.
                                       unscreened               By law, the U.S. Department of the Treasury receives and
                                       mail items pose          disburses funds for most federal agencies. However, some
                                       a threat to the          agencies, including the Library of Congress, have authority
                                       health and safety        to handle funds for their own operating activities.
                                       of the Library’s
                                       e m p l oye e s          Library cash receipt and disbursement transactions are
                                       and          visitors,   principally handled by the Disbursing Office (DO), a
                                       OSS           should     component of the Library’s Office of the Chief Financial
                                       promptly review          Officer (OCFO). The DO is considered a high risk
                                       mail       handling      operation because of the volume of funds it manages and
                                       procedures        and    the speed with which it processes transactions. Library
                                       revise them as           management must employ a system of internal controls
                                       necessary to close       that minimizes risk and ensures accurate and complete
                                       existing security        accountability for the source, use, and destination of all
                                       gaps.                    cash transactions.

                                        The Library Needs
                                                                We concluded that the design of, and compliance with, the
                                        Better    Statistics
                                                                DO’s internal control system were generally good, but we
                                        for Analyzing the
                                                                identified opportunities for improvement in four areas of
                                        Quality of Mail
                                                                DO operations, as follows:
                                        Ser vice—More
                                        emphasis is placed      OCFO and Copyright Should Redesign Internal Controls
                                        on      identifying     for Approving Copyright Bank Deposits—We found
                                        mail     processing     the DO approved Copyright Office (Copyright) deposit
                                        problems through        transactions in Momentum (the Library’s financial system)
                                        discussion     with     without the ability to verify and validate them. This exposed
service unit contacts than on analyzing mail processing         the Library to the possibility that errors and irregularities
data. Our review of mail processing data indicated that         could go undetected in the recording and reconciling of
OSS should increase its emphasis on obtaining, analyzing,       these deposits. We recommended that management revise
and centralizing data that tracks the Library’s mail service    the Momentum approval process for Copyright deposits to
performance, including service costs and damage sustained       ensure that the approving official could verify and validate
by mail items.                                                  these transactions.

Management generally agreed with our findings and               OCFO Should Improve Certain DO Controls—Our
recommendations.                                                review of the DO operations found opportunities for
                                                                speeding up the depositing of checks, improving internal
                                                                control over the input to Momentum of sensitive vendor




                                                                                       Semiannual Report to the Congress 3
       data, and improving internal control for issuing electronic   Integrated Support Services
       payments. We found delays in the way several Library
                                                                     The Library’s Federal Employees’
       offices were forwarding check receipts to the DO and          Compensation Act Program: Generally Well
       recommended revised cash management directives. We            Managed, But Some Improvements Are Needed
       recommended enhanced controls over the entering of            Audit Report No. 2008-PA-102
                                                                     September 2008
       vendor data into Momentum to reduce the occurrence of
       rejected vendor payments. This will improve the overall       The Federal Employees’ Compensation Act (FECA) provides
       timeliness of payments to vendors and reduce resolution       workers’ compensation benefits to Federal and Postal
       costs for undeliverable vendor payments. Additionally,        workers for employment-related injuries and occupational
       Library management can enhance controls over electronic       illnesses. The United States Department of Labor (DOL)
       payments by developing an automated interface between         administers this government-wide program. The Library’s
       Momentum and the Federal Reserve Banking System.              FECA program is managed by a Workers’ Compensation
                                                                     Manager (WCM) within Integrated Support Services.
       OCFO Should Improve Procedures for Resolving Rejected
       Vendor Payments—We found returned vendor payments             Our objectives in this audit were to 1) assess the timeliness
       in Momentum that were unresolved for as long as two           and accuracy of claims processing, 2) evaluate the
       years. Our review determined that there was no automated      effectiveness of the program’s organizational structure,
       method for canceling a payment transaction when the DO        policies, and procedures, and 3) determine whether the
       issued a replacement payment to a vendor. Also, service       internal controls are adequate and effective.
       units were not always responding in a timely manner to
                                                                     While the FECA program is primarily administered by the
       OCFO requests for corrective action for rejected vendor
                                                                     DOL, the Library does perform a limited set of enabling
       payments. We recommended that OCFO determine if
                                                                     tasks. We found those responsibilities performed in general
       a returned payment could be automatically cancelled in
                                                                     compliance with DOL policies and procedures. Overall,
       Momentum when a replacement payment is issued. Such
                                                                     the Library has a relatively low number of FECA claims
       a feature (if cost beneficial) along with more emphasis on
                                                                     (50 or fewer annually) and these claims are effectively
       resolving and reducing the number of returned payments
                                                                     processed and managed.
       will decrease exposure to fraudulent use or manipulation
       of these funds.
                                                                     We concluded that there were some areas in the WCM’s
       The Library/OCFO Can Improve COOP Preparedness—               operations in need of improvement. The WCM is not
       We reviewed the DO’s Continuity of Operations Plan            filing claims timely in accordance with DOL’s goals. The
       (COOP) for operating offsite in the event of an emergency.    WCM’s filing delays are partly due to supervisors and
       We found certain issues which might hinder successful         employees not being responsive to the WCM. Additionally,
       COOP operation at the offsite facility. We recommended        the WCM uses the GroupWise® e-mail program to keep
       that Library management seek funding to ensure that the       track of upcoming deadlines. Health Services recently
       issues we identified be addressed. We also recommended        implemented an automated system for their medical
       enhancements for the facility to ensure it could remain       records, but did not purchase the workers’ compensation
       operational for 30 days if activated.                         module. We also determined that the WCM could not
       Management generally agreed with our findings and             effectively verify the Library’s chargeback report from
       recommendations.                                              the DOL because HRS’ data was insufficient. Lastly, the
                                                                     Library’s FECA regulation, LCR 2018-5 was out of date.

                                                                     We recommended that the Workers’ Compensation
                                                                     Manager:




4   Semiannual Report to the Congress
• continue offering FECA training to staff and supervisors;   positions was relatively constant over the five-year period
and                                                           ending September 30, 2007; Library data on equal
• improve its monitoring of the claims process.               employment opportunity is accurate and complete; and
                                                              the Library’s Office of Workforce Diversity (OWD) and
We also recommended that the Chief Medical Officer:           Equal Employment Opportunity Complaints Office
                                                              are independent of the Library’s General Counsel and
• investigate the cost-effectiveness of the workers’
                                                              Human Resources Director, and, to the extent practical,
compensation module which accompanies the medical
                                                              the Librarian.
records system;
• meet with Human Resources Services (HRS) about the
                                                              The Library has made and is making genuine efforts to
data requirements needed on separated employees; and
                                                              improve diversity in its workforce. Although diversity in
• revise LCR 2018-5 as soon as possible.
                                                              the Library’s senior level positions has remained constant
Management agreed with our findings and                       since 2002, it was higher than that of the Senior Executive
recommendations and LCR 2018-5 is in the Office of the        Service of the executive branch at the end of FY 2007.
General Counsel for revision.                                 Moreover, the Library has made strides in improving
                                                              diversification in its GS-13 to GS-15 positions, which
Library-Wide
                                                              bodes well for the future because GS-15 positions are
Review of the Library’s                                       widely considered the developmental pool for senior level
Diversity Management Program                                  jobs. Additionally, the Library is following most of the
Special Project No. 2008-SP-104                               recommendations of the Government Accountability
July 2008                                                     Office and the Equal Employment Opportunity Comission
                                                              on best practices for promoting diversity and the OWD is
We performed a review of the Library’s diversity
                                                              putting more emphasis on identifying potential systemic
management program and initiatives in response to a
                                                              barriers to greater minority representation in upper level
request by the Chairman of the Federal Workforce, Postal
                                                              positions.
Service, and District of Columbia Subcommittee of the
House of Representatives’ Oversight and Government            The Library’s diversity efforts were hindered by the
Reform Committee. Our objectives were to 1) determine         limited availability of qualified applicants. According
whether the Library’s diversity programs/initiatives are      to the American Library Association, the percentage of
achieving better representation of women and minorities       credentialed minority librarians lags significantly behind
in top leadership positions; 2) evaluate the accuracy and     the representation of minorities in the civilian labor force.
completeness of the complaint and discrimination data the     This highlights the importance of grooming existing staff
Library has reported to Congress; and 3) assess the extent    through training and mentoring programs.
to which the Library’s diversity offices are independent of
its General Counsel and the Librarian.                        In addition to increasing its emphasis on barrier analysis and
                                                              measuring the diversity program’s effectiveness, the Library
For the fiscal year ended September 30, 2007, the Library     needs to complete its succession planning efforts, which
reported a total workforce of 3,786 staff of which 55.2       are a major element in diversity management. The Library
percent were women and 45.6 percent were minorities.          also needs to ensure that the service units are committed to
Included in this workforce were 95 Senior Level Executives    and implementing diversification activities.
of which 43.2 percent were women and 21.1 percent were
minorities.                                                   Library management agreed with our findings and
                                                              recommendations.
Based on our review, we concluded that the representation
of women and minorities in the Library’s senior level




                                                                                      Semiannual Report to the Congress 5
       Library-Wide                                                    management of workforce diversity, and specifically the
                                                                       management of senior level positions. The House of
       Compilation of the Five Legislative
       Branch IGs’ Reports on Their Respective                         Representatives’ IG and the Congressional Budget Office
       Agencies’ Diversity Programs for FY 2007                        (another legislative branch agency) did not participate in
                                                                       this review.
       September 2008

                                                                       The IGs’ reviews culminated in five individual agency
       In November 2007, the Chairman of the Federal
                                                                       reports. The Library of Congress OIG coordinated the
       Workforce, Postal Service, and the District of Columbia
                                                                       compilation, issued in September 2008,
       Subcommittee of the House of Representatives’ Oversight
                                                                       of the five reports. The compilation also
       and Government Reform Committee issued a report titled
                                                                       became the subject of a hearing held by
       “Senior Executive Service: Women and Minorities are
                                                                       the Subcommittee in September 2008
       Underrepresented in Most Legislative Branch Agencies.”
                                                                       (see page 28).
       This report discussed racial and gender diversity in the
       Senior Executive Service (SES) corps in the six legislative
                                                                       Open World Leadership Center
       branch agencies during fiscal year (FY) 2007. The report
                                                                       Fiscal Year 2007 Financial
       presented three key findings:                                   Statements

       • The SES corps were less diverse in terms of minorities        February 2008
       than the agencies’ workforces as a whole, and in four of the
       agencies, less diverse in terms of women;                       The mission of the Open World
       • Representation of minorities in the legislative branch        Leadership Center (the Center) is to
       SES corps was stagnant, with representation of women            enhance understanding between the
       improving only slightly between FYs 2002 and 2007; and          United States and the countries of
       • General Schedule-15 successor pools at some of the            Eurasia and the Baltic States. The Open
       agencies were less diverse than the SES corps.                  World Program enables emerging leaders
                                                                       from Russia and other Eurasian countries
       In response to these findings, the Subcommittee Chairman        to experience American democracy
       requested in a letter dated November 14, 2007 that the          and civil society in action. Since its
       legislative branch agencies’ Inspectors General review their    founding by the Congress in 1999,
       agencies’ diversity programs, specifically to:                  the Open World Program has enabled
       • Identify and assess the diversity programs of legislative     nearly 10,500 current and future leaders
       branch agencies to determine if they are yielding the desired   from Russia, Ukraine, Lithuania, and
       results (creating a more diverse population of women and        Uzbekistan to experience American
       minorities in top leadership positions [SES and GS-15]);        democracy and civil society, work with
       • Evaluate the accuracy and completeness of the complaints      their American counterparts, live with
       and discrimination data being reported to the Congress;         American families, and gain new ideas
       and                                                             and inspiration for implementing change
       • Assess to what degree the diversity offices are independent   at home. Today, the Open World Program is the largest
       of their agency’s general counsel and agency head.              U.S.-Russia exchange program and a proven model for
       To respond to the Chairman’s request, IGs from five             exchanges for leaders from other Eurasian countries.
       legislative branch agencies (Architect of the Capitol,          The Center is an independent entity in the Legislative
       Government Accountability Office, Government Printing           Branch governed by a board of trustees. Board members
       Office, Library of Congress, and the United States Capitol      consist of members of the Congress and private citizens.
       Police) conducted reviews of their respective agencies’         The congressional leadership appoints congressional




6   Semiannual Report to the Congress
        members while the Librarian of Congress appoints citizen      The firm’s auditors also performed tests of compliance with
        board members. The Librarian of Congress is currently the     laws and regulations, and considered internal controls over
        Chairman of the Board.                                        financial reporting and compliance. In its audit of the
                                                                      Center, Kearney & Company found no material weaknesses
        Under contract with the OIG, the accounting firm of           in internal control and no reportable noncompliance with
        Kearney & Company audited the Center’s FY 2007                laws and regulations it tested.
        financial statements and issued its Independent Auditor’s
                                                                                                          We reviewed the firm’s
                                                                                                          planning and approach
                                                                                                          to the audit and
                                                                                                          significant working
                                                                                                          papers, evaluated the
                                                                                                          auditors’ qualifications
                                                                                                          and      independence,
                                                                                                          monitored            the
                                                                                                          progress of the audit,
                                                                                                          coordinated meetings
                                                                                                          with      management,
                                                                                                          performed          other
                                                                                                          procedures            we
                                                                                                          deemed necessary, and
                                                                                                          reviewed and accepted
                                                                                                          Kearney & Company’s
                                                                                                          report.




        Report. The audit included the Center’s balance sheet
        and the related statements of net costs, changes in net
        position, financing, and budgetary resources for the fiscal
        year then ended. The auditors concluded that the financial
        statements were presented fairly in all material respects,
        and in conformity with generally accepted accounting
        principles.


Above: Detail of Sculptured Literature Spandrels by Bella
L. Pratt Above Doors on the Front Facade of the Thomas
Jefferson Building. Photo by Carol M. Highsmith

                                                                                             Semiannual Report to the Congress 7
       U.S. Copyright Office                                          registration process. OCR technology provides the means
                                                                      to read incoming claim applications via computer and using
       Conditions in the processing of copyright claims
                                                                      it was expected to reduce claims processing time. But, the
       September 2008                                                 technology turned out to be unreliable in reading letters
                                                                      and numbers affixed to application documents, and its
       In July 2008, the Copyright Office (Copyright) fully           flaws created an enormous workload increase for Copyright
       implemented its new online copyright registration system,      personnel that included proofing claims and in many cases,
       eCO. The system is a result of an initiative that Copyright    manually typing information from applications into eCO (a
       embarked on in 2000 to reengineer its public services. It      process referred to as “tagging”).Second, assumptions about
       was developed to capture claim applications, prospective       the adoption of electronic claim filings were overly optimistic.
       copyright material, and application fees in electronic form.   Copyright management anticipated that the majority of
       In theory, the system should reduce processing times and       the public would submit applications, deposits, and fees
       greatly improve Copyright’s efficiency and service to the      electronically through eCO. But instead, almost two-thirds
       public.                                                        of the submissions received by Copyright continued to be in

       Our limited review
       of Copyright’s claims
       processing         under
       eCO identified two
       conditions           that
       needed        immediate
       attention to ensure
       that the Library of
       Congress’       strategic
       goals of increasing the
       Library’s collections
       and providing quality,
       efficient       products
       and services were
       not       compromised.
       Specifically,

       • the processing time
       for most claims had
       risen to over nine
       months, and
       •        approximately
       397,000 claims were
       in a steadily increasing
       backlog.
                                                                      paper form. Procedures for processing paper claims are long
       We attributed Copyright’s conditions to two factors. First,
                                                                      and arduous under eCO, mainly because the claims must
       Copyright management chose optical character recognition
                                                                      be manually proofed or keyed into the system. Moreover,
       (OCR) technology at the inception of the eCO project as
                                                                      when data was keyed into eCO, significant errors were
       an attempt to reduce human intervention in the claims


                                                                       Above: Bronze Tympanium by Olin L. Warner Representing ‘Tradition’
                                                                       Above Main Entrance Doors to the Jefferson Building, Occupying the
                                                                       Inside Arch in the Previous Image. Photo by Carol M. Highsmith
8   Semiannual Report to the Congress
made which subsequently were identified and corrected              support units;
by Copyright Registration Specialists before they attended         • implement design policies for new work areas that
to their assessment responsibilities. This additional work         maximize worker productivity and job satisfaction and
significantly hindered the Specialists’ ability to perform their   emphasize maximum access to daylight and outdoor
primary responsibilities in an efficient and timely manner.        views;
The steadily increasing claims backlog was yielding delays         • develop a long-term space management plan which
in the registration of copyright claims. In our view, the          identifies under-utilized space; and
growing backlog will have a serious impact on the U.S.             • consolidate and centralize conference and training rooms
copyright system, negatively affect the Library’s ability          to reduce inefficient use of space.
to provide researchers with current materials in a timely
                                                                   We found that ISS had addressed and taken corrective
manner, and present the Library with a growing space and
                                                                   action in response to the first three recommendations,
security of collections issue if it does not receive prompt
                                                                   but not the fourth. We found that ISS had not implemented
attention. Accordingly, we urged Copyright to increase
                                                                   the fourth recommendation nor taken other actions to re-
the number of Copyright Registration Specialists to assist
                                                                   duce the number of conference and training rooms in the
the office in processing claims and enhance the incentives
                                                                   Library’s Madison building. In fact, the number of con-
offered to the public to increase the number of electronic
                                                                   ference and training rooms increased by 23 and 67 per-
filings.
                                                                   cent, respectively, since 2005. In 2005, the Library had
Copyright indicated that some of the conditions we had
                                                                   82 conference rooms in the Madison building consuming
identified were improving, and generally agreed with our
                                                                   25,782 USF (usable square feet) and 12 training rooms
recommendations, except that management disagreed with
                                                                   consuming 7,664 USF (33,446 total USF). As of Septem-
our recommendation to consider using various employment
                                                                   ber 2008, there were 101 conference rooms and 20 training
flexibilities available to it to tailor staffing to its needs.
                                                                   rooms totaling 42,259 USF in the Madison building.
Integrated Support Services                                        In addition to the increased number of conference and train-
Facility Services                                                  ing rooms, we found that ISS had not enforced a directive,
                                                                   issued by the Librarian on January 1, 2006, that required
Follow-up: Opportunities Exist
to Improve Space Management                                        service and support units to list their conference rooms for
                                                                   scheduling through Public Program Services. Consoli-
Audit report No. 2004-PA-104
September 2008                                                     dating and centrally locating conference rooms would make
                                                                   a substantial contribution toward efficiency in the Library’s
In July 2005, we issued an audit report on the performance         use of floor space. Accordingly, we reaffirmed through our
and management of the Library’s space planning operations.         follow-up report our 2005 recommendation calling for ISS
The audit indicated that many areas within the Library were        to consolidate and centralize the Library’s conference and
both under- and over-utilized due to the lack of standards         training rooms. We also recommended that ISS track the
for space usage. The report included 20 recommendations            usage of newly created training and conference rooms and
that called on Integrated Support Services (ISS) to address        to make the rooms accessible to all service units by listing
space management issues.                                           them under Public Program Services.
We recently completed a follow-up review to determine if
ISS had addressed and taken corrective action in response          Management concurred with our recommendation.
to four of the 2005 report’s recommendations. Those called
for ISS to:
• establish and implement space utilization metrics and
uniform office and workstation standards to ensure
consistent and equitable use of space among service and



                                                                                           Semiannual Report to the Congress 9
       Office of Security and                                           • concluded that existing emergency procedures for
       Emergency Preparedness                                           the Architect of the Capitol (AOC) were adequate. The
       Follow-up: Emergency Preparedness Program
                                                                        AOC actively participates in all emergency planning and
                                                                        training exercises and maintains documentation defining its
       Audit report No. 2005-PA-104                                     responsibilities at the Library during an emergency.
       March 2007

       In March 2007, we issued a report on the Library’s Emer-         In our original review we found that complex threats were
       gency Preparedness Program (EPP). In August 2008, we             not considered in the Library’s emergency response plans.
       completed a follow-up designed to evaluate management’s          An emergency plan should be based on the hazards and
       progress on implementing the report’s recommendations.           threats that may occur. We recommended that OSEP
       We reported that the Office of Security and Emergency            develop or obtain a current threat/risk assessment and use
       Preparedness (OSEP) has implemented most of our recom-           it as a basis for a comprehensive hazard mitigation plan. In
       mendations, leaving only one recommendation outstand-            response, OSEP is conducting an analysis and has expanded
       ing. We found that OSEP:                                         it to include reviewing risk assessments of the collections
                                                                        by service units and to consider the impact of legislation
       • updated and reissued LCR 211-3, which defines the              requiring USCP to prepare recommendations for the
       authority and responsibilities for the EPP;                      management of security functions affecting the Library.
       • updated the 2003 Comprehensive Emergency Plan
       with security measures prescribed by the Department              OSEP is currently soliciting assistance from all Library
       of Homeland Security and other applicable laws and               service/support units, including the Office of the Inspec-
       regulations;                                                     tor General, to assess the effects of the future merger of the
       • retained the three category Emergency Preparedness Deci-       Library’s police force with USCP. Therefore, OSEP has not
       sion matrix because of the current structure of the Library’s    been able to complete a comprehensive threat/risk assess-
       EPP. Based on consultation with OSEP, we concluded that          ment for the Library. This recommendation remains un-
       the recommendation to reduce the categories to two should        implemented and our office will continue to review OSEP’s
       be closed;                                                       progress on this issue.
       • is providing comprehensive training that defines an Office
       Emergency Coordinator’s role and responsibilities during
       an emergency and developed an annual training plan that
       provides classes and instructions for several categories of
       Library staff and tracks all training taken by employees;
       • implemented several initiatives to improve communications
       with disabled staff and disability monitors. Also, with
       assistance from the Office of Workforce Diversity, OSEP
       has continued to work closely with disabled staff in an effort
       to improve assistance during an emergency;
       • is improving coordination and communication with the
       U.S. Capitol Police (USCP) for emergency preparedness.
       Since our original report, progress has also been made on
       the merger between the USCP and the Library’s police
       force with the USCP having authority to direct emergency
       operations under a Memorandum of Understanding; and



                                                                                Facing Page: Bronze Doors by Olin Warner and Herbert Adams at the
                                                                                Main Entrance to the Jefferson Building. The female figures depicted
                                                                                represent truth (holding a mirror and serpent) and research (holding
                                                                                the torch of knowledge). Photo by Carol M. Highsmith
10 Semiannual Report to the Congress
Semiannual Report to the Congress 11
       Investigations

       During the reporting period we received 63 allegations, opened 53 investigations, and closed 65. We referred six cases to the
       U.S. Attorney’s Office; five were accepted. We forwarded five cases to Library of Congress management for administrative
       action. Case and Hotline activity are detailed below:

        Table 1: 	         Investigation Case Activity

                                                   Criminal/Civil              Administrative                        Total
        From Prior Reporting Period                        9                          56                               65

        Opened                                             6                          47                               53
        Closed                                             1                          65                               66


        End of Period                                     14                          38                               52


        Table 2: 	         Hotline Activity

                                                                                             Count
        Allegations received                                                                    5
        Referred to management for action                                                        -
        Opened as investigations                                                                5
        Closed with no action                                                                   2




                                                                              Facing Page: Detail of Eagle Bench Carving. Exterior of Thomas
                                                                              Jefferson Building. Photo by Carol M. Highsmith


12 Semiannual Report to the Congress
Semiannual Report to the Congress 13
       Significant Criminal and                                        A second Library of Congress employee plead guilty to
       Administrative Investigations                                   possession of more than 300 computer files containing
                                                                       child pornography and will be sentenced later this year.
       Blocking Access to the Internet
                                                                       A third criminal investigation is currently underway.
       The OIG has long advocated that the Library                     We will report on the outcome of this case in our next
       employ internet filtering to block employee access to           semiannual report.
       inappropriate Web site content. In the past year we have
                                                                       Identity Theft
       focused significant investigative resources on this area
       and found several Library employees accessing illegal and       An ongoing investigation has revealed that several
       inappropriate sites. In July 2008, the Library installed        current and former Library employees have fallen victim
       blocking capabilities on its computer systems which             to identity theft. We determined that the point of
       restrict access to many inappropriate sites. We commend         compromise was a Library employee who was selling the
       the Library’s actions.                                          personally identifiable information to individuals outside
       Inappropriate Use of the Internet                               of the Library for use in criminal activities.

                                                                       To date, approximately $120,000 in fraud-related loss has
       We initiated and/or completed five investigations involving
                                                                       been detected. The Library has also incurred $83,000
       employees using Library computers or electronic media
                                                                       in costs to purchase credit monitoring for every Library
       devices to access inappropriate internet material during
                                                                       employee due to the breach of security.
       this reporting period. One employee received a written
       reprimand and a senior Library manager received a 30-
                                                                       Several victims sent a collective memorandum to the
       day suspension. Administrative action on the other three
                                                                       Inspector General in appreciation of the work of OIG
       cases is pending.
                                                                       investigators on this case, specifically complimenting the
                                                                       OIG for focusing on their needs.
       Child Pornography

       As a result of our initiative to detect inappropriate or        Provision of Misinformation
       illegal use of Library computers, two employees and
                                                                       We received an allegation that a senior Library employee
       one public researcher have become the focus of criminal
                                                                       may have been coerced into retiring during an EEO sexual
       investigations. OIG Special Agents, working with federal
                                                                       harassment case. Our investigation revealed that the
       prosecutors, obtained and executed search warrants to
                                                                       employee had been erroneously advised by management
       obtain evidence to prosecute these cases.
                                                                       on the law relating to loss of pension benefits. We
       As previously reported, one employee has been prosecuted        reported the incident to the Chief Operating Officer and
       for possession of child pornography and was sentenced           the misinformation was subsequently corrected before the
       during the reporting period to 10 years of incarceration,       employee retired.
       the maximum sentence allowed. This employee accessed
       the illegal material from several office spaces using Library
       computers and its communications network. While
       searching the employee’s residence, we obtained video
       evidence that the employee previously had inappropriate
       contacts with children.




14 Semiannual Report to the Congress
Distribution of NLS Materials
on a Yahoo!® News Group Site

The Director of the National Library Service for the
Blind and Physically Handicapped (NLS) reported
improper offers to distribute NLS materials on
a Yahoo!® news group site. The OIG monitored
activity over several weeks and identified several
postings containing suspected NLS materials.
We identified one additional subject and the
newsgroups’ moderator. We provided the names
and e-mail addresses of the moderator and two
subjects to the Library’s General Counsel who issued
a cease and desist letter to all three individuals. The
site no longer exists.




                                                          Semiannual Report to the Congress 15
16 Semiannual Report to the Congress
Unimplemented Recommendations

Table 3A: 	          Significant Recommendations from Previous Semiannual
                     Reports for Which Corrective Action Has Not Been Completed
                               Report No. and
        Subject                                     Office         Rec. No.          Summary and Status of Recommendation
                                 Issue Date
Office of the Chief Financial Officer (OCFO)
                                                                              Coordinate more closely the Workforce Transformation and
                                                                              Workforce Performance efforts—The Library continues to
                                                                              move forward on implementing performance management
                                                    Strategic
Performance-based               2004-FN-501                                   goals in its service/support units. The newly formed Office
                                                Planning Office/     IV
Budgeting                      September 2006                                 of Workforce Performance and Development in Human
                                                 Budget Office
                                                                              Resources Services is leading this process with focus on
                                                                              training, performance development, managerial succession,
                                                                              and identification of core competencies.
Human Resources Services (HRS)
                                                    Human
Human Resources                  2005-AT-902                                  The Library should establish a supervisor’s manual—HRS
                                                   Resources         II.c
Policies                         March 2007                                   expects to complete the manual by March 31, 2009.
                                                    Services
Office of Security and Emergency Preparedness (OSEP)
                                                                              Develop or obtain a threat/risk assessment—OSEP is
Emergency                        2005-PA-104                                  determining the Library’s vulnerabilities in coordination
                                                    OSEP             III
Preparedness Program             March 2006                                   with all Library units and will coordinate the risk
                                                                              assessment with the U.S. Capitol Police.
Integrated Support Services (ISS)

                                                                              Collect the information needed to effectively forecast the
Facilities Design &
                                                                              staffing resources required by FD&C—The forecasting
Construction Faces              2006-PA-107       Integrated
                                                                     I.1      information needed is currently being collected by a
Challenges in Providing        September 2007   Support Services
                                                                              contractor and was scheduled to be completed by October
Service
                                                                              1, 2008, with staffing forecasts due in December 2008.

Facilities Design &
                                                                              Place a priority on completing the Project Delivery Manual—
Construction Faces              2006-PA-107       Integrated
                                                                     II.1     The Project Delivery Manual is under development and is
Challenges in Providing        September 2007   Support Services
                                                                              scheduled for completion in November 2008.
Service

Facilities Design &                                                           Implement post occupancy evaluations to assess the
Construction Faces              2006-PA-107       Integrated                  outcome of its design efforts—A post occupancy evaluation
                                                                     II.5
Challenges in Providing        September 2007   Support Services              survey is under development and will be issued during the
Service                                                                       second half of FY 2009.

Facilities Design &
                                                                              Establish goals for the completion of FAST service requests
Construction Faces              2006-PA-107       Integrated
                                                                     V. 1     by type of request—ISS expects that the goals will be in
Challenges in Providing        September 2007   Support Services
                                                                              place by the end of the second quarter of FY 2009.
Service

                                                                              Create a “triage” system to reorder and allocate resources
Facilities Design &
                                                                              based on its current workload and resource balance—
Construction Faces              2006-PA-107       Integrated
                                                                     V. 2     Review of the recommended “triage” system will commence
Challenges in Providing        September 2007   Support Services
                                                                              following completion of the Project Delivery Manual and
Service
                                                                              staffing resources review.
Facing Page: Ornate Lamp Post Beside Stairs
Leading to the Main Entrance to the
Jefferson Building                                                                           Semiannual Report to the Congress 17
Unimplemented Recommendations

Table 3A: 	       Significant Recommendations from Previous Semiannual
                  Reports for Which Corrective Action Has Not Been Completed
                          Report No. and
        Subject                                Office         Rec. No.           Summary and Status of Recommendation
                            Issue Date
                                                                         Establish timeframes for the completion of various project
Facilities Design &
                                                                         types—Application of time frames to various project types
Construction Faces         2006-PA-107       Integrated
                                                                V. 3     will be implemented following completion of the Project
Challenges in Providing   September 2007   Support Services
                                                                         Delivery Manual and staffing resources review by ISS’
Service
                                                                         business process reengineering contractor.
                                                                         The Library should critically analyze its strategy for
Review of the                                                            providing storage space for materials in order to determine
Requirements Analysis      2006-SP-802       Integrated                  the best storage strategy for various types of materials—
                                                                 I
for the Proposed Fort      March 2008      Support Services              ISS commissioned a study to examine storage usage at
Meade Logistics Center                                                   the Library’s Landover Center Annex. The final report is
                                                                         scheduled for delivery October 31, 2008.
Review of the                                                            ISS/Facility Services should reevaluate the three questionable
Requirements Analysis      2006-SP-802       Integrated                  surge allowances—Logistics is working with a consultant
                                                                III
for the Proposed Fort      March 2008      Support Services              to review and evaluate present and future storage needs. A
Meade Logistics Center                                                   final report is scheduled for delivery October 31, 2008.
                                                                         Facility Services should recalculate the growth factor starting
Review of the                                                            from a “clean” baseline and consider leasing storage space
Requirements Analysis      2006-SP-802       Integrated                  on an as-needed basis to accommodate potential growth
                                                                IV
for the Proposed Fort      March 2008      Support Services              in storage requirements—ISS will recalculate growth
Meade Logistics Center                                                   factors and will have the Architect of the Capitol evaluate
                                                                         commercial leasing alternatives during FY 2009.
Library Services (LS)
                                                                         Develop a decision model for determining reading room
Utilization of             2003-PA-104                                   space requirements—Despite its previous target date of
                                           Library Services     II.1
Reading Rooms              March 2004                                    May 2008, Library Services is still collecting reading room
                                                                         usage data and is not ready to develop a decision model.
                                                                         Use the decision model to make decisions about reading
                                                                         room, office space, and storage requirements—Library
Utilization of             2003-PA-104                                   Services (LS) is still collecting reading room usage data and
                                           Library Services     II.2
Reading Rooms              March 2004                                    is not ready to develop a decision model. LS also needs
                                                                         to coordinate its data with possible space reprogramming
                                                                         initiated by the Librarian’s Office.
                                                                         Review the collections policy statements at least once every
                                                                         five years—In May 2008, Library Services initiated a review
Collections                2006-PA-104
                                           Library Services     II.3     of all collections policy statements; draft updated versions
Acquisitions Strategy     December 2006
                                                                         of the 75 collections policy statements were scheduled to be
                                                                         posted online in October 2008 for general staff review.
                                                                         Develop and communicate to recommending officers
                                                                         criteria for recommending activities—Library Services
Collections                2006-PA-104
                                           Library Services    III.1     will determine in FY 2009 how to implement consistent
Acquisitions Strategy     December 2006
                                                                         standards, taking into account the recommendations of the
                                                                         strategic working group.

                                                                         Consider creating a full-time Digital Subscriptions
Collections                2006-PA-104
                                           Library Services     IV.2     Manager—Library Services will make a decision in FY
Acquisitions Strategy     December 2006
                                                                         2009 about creating this position.



18 Semiannual Report to the Congress
Table 3A: 	         Significant Recommendations from Previous Semiannual
                    Reports for Which Corrective Action Has Not Been Completed
                             Report No. and
        Subject                                 Office        Rec. No.          Summary and Status of Recommendation
                               Issue Date
Office of Strategic Initiatives (OSI)
                                                                         More effective procedures to monitor costs are needed—
Financial Management          2006-PA-105                                OSI hired personnel to monitor and conduct oversight of
                                                NDIIPP           I
Policies of the NDIIPP        March 2007                                 cooperative grant agreements. Procedures are currently
                                                                         under development.
                                                                         OSI needs to improve oversight of NDIIPP partners’
Financial Management          2006-PA-105                                matching requirements—OSI hired personnel to monitor
                                                NDIIPP           II
Policies of the NDIIPP        March 2007                                 and conduct oversight of cooperative grant agreements.
                                                                         Procedures are currently under development.
                                                                         OSI needs to formalize and fully implement NDIIPP draft
Financial Management          2006-PA-105                                procedures—OSI hired personnel to monitor and conduct
                                                NDIIPP          III
Policies of the NDIIPP        March 2007                                 oversight of cooperative grant agreements. Procedures are
                                                                         currently under development
                                                                         ITS should compare the cost of obtaining long-distance
The Library Should                                                       telephone service through the AOC contract with the cost
Explore Alternative                                                      of obtaining that service from alternative service providers
                              2007-CA-101
Long-Distance                                     ITS            I       to find the best value to the Library—ITS has contacted the
                               March 2008
Telephone Service                                                        Office of Contracts and Grants Management to negotiate
Providers                                                                better long-distance pricing when the long-distance service
                                                                         contract is renewed in FY 2009.
                                                                         ITS should: 1) develop and implement written procedures
                                                                         to guide and control the long-distance bill review and
The Library Should                                                       payment approval process, and 2) explore acquiring a new
Explore Alternative                                                      automated system to provide more effective accounting
                              2007-CA-101
Long-Distance                                     ITS            II      for the Library’s telephone calls—ITS is in the process of
                               March 2008
Telephone Service                                                        developing standard written procedures to guide and control
Providers                                                                the long-distance review and payment approval process; in
                                                                         lieu of acquiring a new automated call accounting system,
                                                                         ITS upgraded its existing system.
Office of the Librarian (LIBN)
                                                                         Revise Library of Congress Regulation (LCR) 2020-7 to
                                               Office of                 allow complainants to use dispute resolution during the
Dispute                       2002-PA-104
                                               Workforce        III      formal EEO complaint process—As soon as the reorganized
Resolution Center            September 2003
                                               Diversity                 Office of Workforce Diversity is staffed, the LCR will be
                                                                         rewritten to include this change.
Equal Employment                               Office of                 Evaluate and revise LCR 2010-3.1—As soon as the
                              2001-PA-104
Opportunity                                    Workforce         I       reorganized Office of Workforce Diversity is staffed, the
                              February 2003
Complaints Office                              Diversity                 LCR will be rewritten to include this change.
                                                                         Mandate a Library-wide succession planning program
                                                                         that endows HRS with a strong leadership role—The
                              2004-PA-105     Office of the
Succession Planning                                             I.1      draft Agency Succession Management Plan was presented
                              March 2005       Librarian
                                                                         to the Executive Committee in September 2008 and its
                                                                         implementation is targeted for October 31, 2008.




                                                                                        Semiannual Report to the Congress 19
Unimplemented Recommendations
Table 3A: 	        Significant Recommendations from Previous Semiannual
                   Reports for Which Corrective Action Has Not Been Completed
                         Report No. and
        Subject                             Office      Rec. No.          Summary and Status of Recommendation
                           Issue Date

Office of Contracts-                                               Establish and issue the procurement policy and procedures
                          2007-PA-102      Office of
Service Remains Less                                      III      manual referred to in LCR 2110—The manual is targeted
                         September 2007    Contracts
Than Satisfactory                                                  for completion in December 2008.

                                                                   Continue coordinating with OCFO to identify
Office of Contracts-                                               opportunities for modifying/improving Momentum—
                          2007-PA-102      Office of
Service Remains Less                                      IV       The Contracts Office has hired a contractor to assess
                         September 2007    Contracts
Than Satisfactory                                                  Momentum’s acquisition module and to identify system
                                                                   improvements.
                                                                   Establish and issue policy that officially implements details
Office of Contracts-
                          2007-PA-102      Office of               of OMB’s acquisition training policy—The Contracts
Service Remains Less                                       V
                         September 2007    Contracts               Office will conduct a “needs assessment” to determine the
Than Satisfactory
                                                                   training needed.
                                                                   The Library’s general lack of compliance with certain
                                                                   Federal Acquisition Regulation (FAR) requirements
Lack of Compliance
                                                         Non-      may be due in part to uncertainty regarding whether it
with Library              2008-SP-101      Office of
                                                        Compl.     is Library policy to implement those requirements—The
Contracting Policy is     March 2008       Contracts
                                                        Reason 4   Contracts Office is working with the Office of General
Widespread
                                                                   Counsel and the Office of the Chief Financial Officer to
                                                                   address uncertain policy areas.

Information                                                        For the Raiser’s Edge System, the Development
Technology Review         2006-IT-302     Development              Office should improve certain security features—The
                                                           I
of the Raiser’s Edge     December 2007       Office                Development Office is waiting for a software upgrade to
Software Program                                                   test changes.

Information                                                        The Director of the Development Office should ensure
Technology Review         2006-IT-302     Development              that the Raiser’s Edge system undergoes Certification and
                                                           II
of the Raiser’s Edge     December 2007       Office                Accreditation (C&A)—The C&A process was initiated
Software Program                                                   during this semianuual period.

Information                                                        System managers for Raiser’s Edge should regularly review
Technology Review         2006-IT-302     Development              the system’s transaction logs for suspect data events—The
                                                          III
of the Raiser’s Edge     December 2007       Office                Development Office is waiting for a software upgrade to
Software Program                                                   implement this recommendation.




20 Semiannual Report to the Congress
Above: Profile of a Cherub on the Base of a
Lamp Post at the Main Entrance to the
Jefferson Building



                                              Semiannual Report to the Congress 21
Implemented Recommendations

 Table 3B: 	        Significant Recommendations from Previous Semiannual Reports
                    For Which Corrective Action Was Completed During This Period
                              Report No. and
         Subject                                    Office         Rec. No.         Summary of Recommendations and Actions
                                Issue Date

 Office of the Chief Financial Officer (OCFO)
                                                                              Implement an automated tracking system—An automated
 Management                    2004-PA-106         Strategic
                                                                      II      tracking system has been developed, tested, and is in the
 Control Program               March 2006       Planning Office
                                                                              process of implementation.
                                                                              Develop a formal plan for implementing Performance-
                                                                              based Budgeting—The Library has revamped its strategic
                                                                              planning process, annual performance goals, annual
                                                    Strategic
 Performance-based             2004-FN-501                                    performance plan assessment, and congressional budget
                                                Planning Office/      I
 Budgeting                    September 2006                                  justification format to conform with the spirit of the
                                                 Budget Office
                                                                              Government Performance and Results Act (GPRA).
                                                                              It continues to refine and emphasize GPRA-based
                                                                              management and reporting.
                                                                              The Library needs a performance management system—
                                                                              The Library has developed and installed eLC Plans, an
                                                                              automated tracking of service/support unit progress on
 Performance-based                                  Strategic
                               2004-FN-501                                    annual performance goals, and a management dashboard
 Budgeting                                      Planning Office/     III
                              September 2006                                  reporting system that tracks service/support unit progress
                                                 Budget Office
                                                                              on performance goals and other key operating activities.
                                                                              The Library will continue to refine and improve these
                                                                              performance management reporting tools.
 Office of Strategic Initiatives (OSI)
 Lead Institutions Need                                                       OSI needs to revise draft monitoring procedures for
 to Improve NDIIPP             2007-FN-101                                    payment approvals to comply with OMB cost circulars—
                                                   NDIIPP             II
 Monitoring                   September 2007                                  OSI has developed and implemented proper procedures for
                                                                              monitoring the financial activities in the NDIIPP.
 Integrated Support Services (ISS)
 Facilities Design &                                                          Increase the monitoring of the FAST requests and investigate
 Construction Faces            2006-PA-107        Integrated                  any request outstanding for more than the planned time—
                                                                     V. 4
 Challenges in Providing      September 2007    Support Services              This recommendation has been implemented and has been
 Service                                                                      integrated into the annual Management Plan.
 Facilities Design &
                                                                              Stress to the service providers the importance of inputting
 Construction Faces            2006-PA-107        Integrated
                                                                     VI       the completion date as soon as the job is completed—
 Challenges in Providing      September 2007    Support Services
                                                                              Recommendation fully implemented.
 Service
                                                                              Facility Services should consider implementing a
                                                                              reimbursement-based procedure for warehouse storage.
                                                                              At minimum, Logistics Services should conduct periodic
 Review of the                                                                reviews or inventories of materials stored by service and
 Requirements Analysis         2006-SP-802        Integrated                  support units and communicate this information to the
                                                                      II
 for the Proposed Fort         March 2008       Support Services              service and support units—ISS does not plan to implement
 Meade Logistics Center                                                       the recommended reimbursement-based procedure. It
                                                                              plans to initiate semiannual cycle counts of service/support
                                                                              units’ inventories stored in the warehouse beginning FY
                                                                              2009.




22 Semiannual Report to the Congress
Table 3B: 	       Significant Recommendations from Previous Semiannual Reports
                  For Which Corrective Action Was Completed During This Period
                           Report No. and
        Subject                                 Office         Rec. No.         Summary of Recommendations and Actions
                             Issue Date

Facilities Design &                                                       Reinforce Facility Services centralized role in space
Construction (FD&C)         2006-PA-107       Integrated                  planning and design—The Library’s Chief Operating
                                                                  IV
Faces Challenges in        September 2007   Support Services              Officer is working closely with Facility Services to ensure
Providing Service                                                         its centralized oversight role in space planning and design.
                                                                          Involve customers further in the process—FD&C is now
Facilities Design &
                                                                          meeting with new customers early in the design phase to
Construction Faces          2006-PA-107       Integrated
                                                                 V.5      ensure proper introduction of its process. FD&C is also
Challenges in Providing    September 2007   Support Services
                                                                          taking customers to on-site model offices to ensure a better
Service
                                                                          visualization of the finished product.
                                                                          OSS should promptly draft and promulgate procedures for
Survey of Office
                                                                          shippers of materials which, among other things, specify
Systems Services’ (OSS)    2008-AT-901      Office Systems
                                                                   I      how overseas shipments intended for the Library should
Handling of Imported       February 2008       Services
                                                                          be addressed—OSS has implemented the recommended
Materials
                                                                          procedures.
                                                                          OSS officials should scrutinize invoices received from its
Survey of Office
                                                                          customs broker and request a supporting explanation/
Systems Services’          2008-AT-901      Office Systems
                                                                  II      documentation for line item charges when reason for charge
Handling of Imported       February 2008       Services
                                                                          is unclear—OSS has implemented the recommended
Materials
                                                                          procedures.
                                                                          OSS should competitively bid the customs broker
Survey of Office
                                                                          contract—OSS pointed out that as a micro-purchase, the
Systems Services’          2008-AT-901      Office Systems
                                                                  III     contract may not be subject to competition; however, OSS
Handling of Imported       February 2008       Services
                                                                          is reviewing pricing to ensure it is receiving cost-effective
Materials
                                                                          service.
Office of the Librarian (LIBN)
                                                                          Fund three additional contract specialist positions—The
Office of Contracts-
                            2007-PA-102        Office of                  Contracts Office has hired a contract specialist and has
Service Remains Less                                               I
                           September 2007      Contracts                  open continuous job announcements to fill additional
Than Satisfactory
                                                                          positions.
                                                                          Assess workforce needs annually and update hiring
Office of Contracts-                                                      strategies—The Contracts Office has developed staff
                            2007-PA-102        Office of
Service Remains Less                                              II      training measurements and hired a contract specialist
                           September 2007      Contracts
Than Satisfactory                                                         to review and make recommendations for improving
                                                                          operational efficiencies.
Office of Contracts-
                            2007-PA-102        Office of                  Recruit and select a Director of the Office of Contracts and
Service Remains Less                                              VI
                           September 2007      Contracts                  Grants Management—This position was filled.
Than Satisfactory
                                                                         The Library generally does not comply with FAR
Lack of Compliance
                                                                         requirements regarding contract format or contract file
with Library                2008-SP-101        Office of         Major
                                                                         maintenance—The Contracts Office implemented a
Contracting Policy is       March 2008         Contracts       Finding 1
                                                                         procedure which provides instructions on what contract
Widespread
                                                                         files will contain and how they will be maintained.




                                                                                           Semiannual Report to the Congress 23
 Implemented Recommendations
Table 3B: 	        Significant Recommendations from Previous Semiannual Reports
                   For Which Corrective Action Was Completed During This Period
                         Report No. and
         Subject                            Office    Rec. No.          Summary of Recommendations and Actions
                           Issue Date

 Lack of Compliance                                             The Library generally does not comply with requirements
 with Library             2008-SP-101     Office of     Major   regarding acquisition planning—The Contracts Office
 Contracting Policy is    March 2008      Contracts   Finding 2 implemented a procedure which provides instructions on
 Widespread                                                     acquisition planning.
                                                                The Library generally does not comply with requirements
 Lack of Compliance
                                                                calling for supplies and services to be purchased at fair and
 with Library             2008-SP-101     Office of     Major
                                                                reasonable prices and for justifications for corresponding
 Contracting Policy is    March 2008      Contracts   Finding 3
                                                                price decisions—The Contracts Office implemented a
 Widespread
                                                                procedure which addresses these requirements.
                                                                Key Library contracting duties and numerous decisions
                                                                critical to the Library’s contracting process have been
 Lack of Compliance                                             accomplished by persons who are not authorized or trained
 with Library             2008-SP-101     Office of     Major   to perform them—The Contracts Office implemented a
 Contracting Policy is    March 2008      Contracts   Finding 4 procedure which provides instructions on how the Contract
 Widespread                                                     Review Board will ensure Contracting Officers comply with
                                                                prevailing laws, rules, regulations, and Library of Congress
                                                                policies relating to contracting and procurement.
                                                                The Library generally has not complied with Library
                                                                requirements to affirmatively determine the responsibility
 Lack of Compliance
                                                                of a prospective contractor before awarding a contract—
 with Library             2008-SP-101     Office of     Major
                                                                The Contracts Office implemented a procedure which
 Contracting Policy is    March 2008      Contracts   Finding 5
                                                                provides instructions on how the Library Contract Review
 Widespread
                                                                Board will address contractor responsibility pursuant to
                                                                FAR Part 9.
                                                                The Library does not comply with the requirement to
                                                                verify a prospective contractor’s registration in the Central
 Lack of Compliance
                                                                Contractor Registration (CCR) database before awarding
 with Library             2008-SP-101     Office of     Major
                                                                contracts—The Contracts Office implemented a procedure
 Contracting Policy is    March 2008      Contracts   Finding 6
                                                                which provides instructions on how the Contract Review
 Widespread
                                                                Board will verify that a contractor is registered with the
                                                                CCR.
                                                                Most contracts reviewed did not comply with the Service
                                                                Contract Act of 1965 (SCA). To comply with the SCA,
                                                                agencies are required to check with the Department of
 Lack of Compliance
                                                                Labor to determine prevailing geographic area wages for
 with Library             2008-SP-101     Office of     Major
                                                                the service that will be provided through the contract—The
 Contracting Policy is    March 2008      Contracts   Finding 7
                                                                Contracts Office implemented a procedure which requires
 Widespread
                                                                the Contract Review Board to document comparison of
                                                                proposed rates with rates established by the Department
                                                                of Labor.




24 Semiannual Report to the Congress
Table 3B: 	       Significant Recommendations from Previous Semiannual Reports
                  For Which Corrective Action Was Completed During This Period
                        Report No. and
        Subject                           Office     Rec. No.         Summary of Recommendations and Actions
                          Issue Date
                                                               A number of contracts reviewed were awarded as fixed-
Lack of Compliance
                                                               price contracts, but appeared to have the characteristics
with Library             2008-SP-101     Office of     Major
                                                               of cost-reimbursement contracts—A newly implemented
Contracting Policy is    March 2008      Contracts   Finding 8
                                                               procedure requires that the Contract Review Board review
Widespread
                                                               and verify that the appropriate contract type is awarded.
Lack of Compliance                                             Many contract modifications were not processed according
with Library             2008-SP-101     Office of     Major   to required procedures—The Contracts Office provided
Contracting Policy is    March 2008      Contracts   Finding 9 training to contract staff on awarding contracts and
Widespread                                                     processing contract modifications and options.
                                                                Only two out of the 13 largest contracts containing options
Lack of Compliance                                              that were reviewed included contract options that were
                                                      Major
with Library             2008-SP-101     Office of              properly justified, authorized, or supported according
                                                     Finding
Contracting Policy is    March 2008      Contracts              to Library-required procedures—The Contracts Office
                                                       10
Widespread                                                      provided training to contract staff on awarding contracts
                                                                and processing contract modifications and options.
                                                              Many of the various Library staff who participate in the
Lack of Compliance                                            contracting process do not adequately understand Library
                                                      Non-
with Library             2008-SP-101     Office of            and FAR procurement requirements and therefore are not
                                                     Compl.
Contracting Policy is    March 2008      Contracts            prepared to perform their respective duties—The Contracts
                                                     Reason 1
Widespread                                                    Office hired five new employees with extensive contracting/
                                                              business backgrounds within the last six months.
                                                              Contracting module may not be configured correctly—The
Lack of Compliance
                                                      Non-    Contracts Office hired a contractor to assess Momentum’s
with Library             2008-SP-101     Office of
                                                     Compl. acquisition module to identify system improvements, and
Contracting Policy is    March 2008      Contracts
                                                     Reason 2 assist in making Momentum an adequate procurement
Widespread
                                                              management system.
                                                              The contract review and approval process has not exposed
Lack of Compliance                                            systemic contracting issues that negatively affect the
                                                      Non-
with Library             2008-SP-101     Office of            contract function—The Contracts Office has implemented
                                                     Compl.
Contracting Policy is    March 2008      Contracts            Operating Instruction No. 1003 revising the review and
                                                     Reason 3
Widespread                                                    approval process conducted by the Contracting Review
                                                              Board.
Human Resources Services (HRS)
                                          Human                 The Library should establish an employee manual—HRS
Human Resources          2005-AT-902
                                         Resources     II.d     completed the manual and has posted it to the HRS Web
Policies                 March 2007
                                          Services              site.




                                                                              Semiannual Report to the Congress 25
   Funds Questioned or Put to Better Use
    Table 4:	         Audits with Recommendations for Better Use of Funds
    Reports…                                                                      Number   Value
    …for which no management decision was made by the start of the period:          -        -

    …issued during the period:                                                      -        -
                                                                       Subtotal     -        -
    …for which a management decision was made during the reporting period:

            value of recommendations agreed to by management                        -        -

            value of recommendations not agreed to by management                    -        -

    …for which no management decision was made by the end of the reporting
                                                                                    -        -
    period:

    …for which no management decision was made within six months of
                                                                                    -        -
    issuance:


    Table 5:	         Audits with Questioned Costs
    Reports…                                                                      Number   Value
    …for which no management decision was made by the start of the period:          -        -
    …issued during the period:                                                      -        -
                                                                       Subtotal     -        -
    …for which a management decision was made during the reporting period:

                value of recommendations agreed to by management                    -        -

                value of recommendations not agreed to by management                -        -

    …for which no management decision was made by the end of the reporting
                                                                                    -        -
    period:
    …for which no management decision was made within six months of issu-
    ance:                                                                           -        -




26 Semiannual Report to the Congress
Instances Where Information or
Assistance Requests Were Refused
No information or assistance requests were refused during this period.

Status of Recommendations
Without Management Decisions
During the reporting period there were no recommendations more than six months old without management
decisions.


Significant Revised Management Decisions
During the reporting period there were no significant revised management decisions.


Significant Management Decisions
With Which OIG Disagrees
During the reporting period there were no significant disagreements with Library management about decisions on OIG
recommendations.


Follow-up on Prior Period Recommendations
In this semiannual period, we followed up on all open recommendations from our prior semiannual period. Com-
ments on the status of individual recommendations appear in table 3A. Recommendations implemented during the
period appear in table 3B.




                                                                                      Semiannual Report to the Congress 27
     Other Activities
     Inspector General Participates in                               Library’s diversity management program and initiatives in
     Conference on Collections Security                              response to the Subcommittee’s request of November 14,
                                                                     2007.
     May 2008

                                                                     The IG reported that for the fiscal year ended September
     The Inspector General was a guest speaker on collections
                                                                     30, 2007, the Library recorded a total workforce of 3,786
     security at the Ligue des Bibliothéques Européennes de
                                                                     staff of which 55.2 percent were women and 45.6 percent
     Recherche (Association of European Research Libraries
                                                                     were minorities. These percentages are above federal and
     [LIBER]) conference in May at the invitation of the
                                                                     civilian workforce levels. Included in these numbers are 95
     host British Library in London. LIBER is the principal
                                                                     senior level executives of which 43.2 percent were women
     association of research libraries and national library
                                                                     and 21.1 percent were minorities. The representation of
     organizations in Europe.
                                                                     both women and minorities is significantly higher than
     The stewardship responsibility for securing library             the government-wide average and slightly lower than the
     collections is important in light of recent incidents at some   civilian labor force.
     of the world’s largest libraries. This conference provided
     a forum for sharing information on market intelligence,         Women are similarly represented in the developmental
     technology, trend analysis, and research into collections       pool; however, minority representation in the development
     security, and communicated some new ideas and                   pool is lower than the government and civilian workforces.
     experiences in safeguarding collections. The conference         The IG also testified that the Library of Congress:
     included a closed round table that provided a means of
     further exploring library collections risk management,          • Is adopting many of the best practices in diversity
     investigating incidents, and preventing loss.                   management;
                                                                     • Has made progress in improving the developmental
     The Inspector General served on a panel with the Director
                                                                     pool;
     General of the National Library of France and discussed
                                                                     • Has an independent diversity office; and
     the development of the Library’s collections security
                                                                     • Workforce diversity data is accurate and complete.
     program and the role of the Inspector General regarding
     collections security at the Library of Congress. The
                                                                     The Inspector General concluded that overall, the Library
     conference was attended by representatives from Great
                                                                     is committed to diversity and has an effective diversity
     Britain, the Netherlands, Denmark, Sweden, and other
                                                                     program, if fully implemented. The OIG determined, and
     European national libraries; as well as numerous academic
                                                                     the Library agreed, that there are several ways to further
     libraries including Oxford, Cambridge, King’s College,
                                                                     improve the diversity program. A summary of our July
     and Harvard; the New York Public Library; and various
                                                                     2008 report and our recommendations are summarized on
     archives and museums.
                                                                     page 5.

     Inspector General Testifies
     On Workforce Diversity                                          Congress Requests Public
                                                                     Access to OIG Reports
     September 2008
                                                                     June 2008
     The Inspector General testified before the House Committee
     on Oversight and Government Reform, Subcommittee                The Chairman of the Committee on House Administration
     on Federal Workforce, Postal Service, and the District of       in a June 24, 2008 letter expressed appreciation for OIG
     Columbia on September 16, 2008 concerning workforce             efforts in reviewing operations of the Library and his belief
     diversity. The testimony was based on an audit of the           that the Library would benefit from wider dissemination




28 Semiannual Report to the Congress
of our findings to include posting reports on our Web site. In        material weakness will also appear in the auditors’ FY 2008
addition, he requested copies of all reports issued under the         report. Finally, this breakdown resulted in significant delays and
current Inspector General’s tenure, dating back to March 12,          substantial added audit costs in issuing the auditors’ opinion
2001.                                                                 on both the Library and Madison Council FY 2007 financial
                                                                      statements.
We have fulfilled the request for archive reports and are preparing
to post digital reports on our Web site. When posted, the reports     Subsequent to our April memorandum, ISS and OCFO took
will be available at www.loc.gov/about/oig.                           prompt action to correct the weaknesses. As a result, the system
                                                                      of internal controls for fixed assets has been drastically redesigned,
Fixed Asset Control System                                            with OIG input, and a revised Library of Congress regulation
                                                                      has been issued to reflect these changes. The new process has
April 2008
                                                                      been put in place, and directives which address the specifics of
                                                                      the new process are either issued or are currently being drafted.
During this reporting period, we issued a memorandum
                                                                      We commend ISS and OCFO for their prompt action on this
discussing a significant breakdown in the Library’s fixed asset
                                                                      matter.
control system. This breakdown ultimately resulted in the report
of a material weakness by the external auditors in the Library’s
FY 2007 financial statements.

Integrated Support Services (ISS) is responsible for maintaining
the Library’s fixed asset control system, reconciling this system
to the Library’s general ledger, and conducting annual fixed asset
inventories. During the Library’s FY 2007 financial audit, ISS
advised the Office of the Chief Financial Officer (OCFO) that
it could not locate a significant number of the Library’s fixed
assets.


We reviewed the variances and related reconciliations. We
concluded that the Library’s fixed asset control system was neither
designed nor operating properly. There were control weaknesses
throughout the fixed asset lifecycle, including the processes to:


• capitalize new assets,
• periodically reconcile subsidiary systems to the general ledger,
• maintain records to accurately account for physical inventory
variances,
• dispose of retired assets, and
• oversee property records.


We analyzed the internal control system related to fixed assets
and found that ISS was substantially responsible for the
breakdown in the system. The Library had to make significant
adjustments to its FY 2007 financial statements. Since these
control issues continued well into FY 2008, it is likely that the




                                                                                           Semiannual Report to the Congress 29
      Review of Legislation and Regulations
       Table 6:           Review of Library of Congress Regulations
                  LCR Reviewed                        Comments by the Office of The Inspector General
                                        Due in part to the external auditors’ report of a material weakness in this area, we
       LCR 1615-1
                                        made multiple recommendations to improve controls. We met several times with
       Inventory Control of Equipment
                                        the Offices of the General Counsel, Chief Financial Officer, and Logistics Services
       and Furniture Owned or Leased
                                        to discuss specific control issues. The control system has now been redesigned from
       by the Library of Congress
                                        the ground up with particular emphasis on problem areas.
       LCR 2013
       Pay Administration, Retention    We made some recommendations to help clarify certain areas we believed were
       Allowance, and Relocation and    unclear.
       Recruitment Bonus

       OGC Directive 08-01
       Litigation - Responding to       We had no comment on this draft directive.
       Discovery Requests

       LCR 211-5
       Functions and Organization
                                        We had no comment on this proposed regulation.
       of the Office of the Chief
       Financial Officer




30 Semiannual Report to the Congress
Above: Closeup of a Cherub on the Base of a Lamp
Post at the Main Entrance to the
Jefferson Building.


                                                   Semiannual Report to the Congress 31
   Organizational Chart

                                                          Inspector General
              Counsel to the IG                                                                 Administrative officer
                                                          Karl W. Schornagel
              Judith K. Leader, Esq.                      CPA                                   Sheetal Gupta
              (part-time)




                     Assistant Inspector                                                    Assistant Inspector
                     General for audits                                                     General for Investigations
                     Nicholas G. Christopher, Esq., CPA                                     Kenneth R. Keeler




     Senior Auditor                           Senior Auditor                   Special Agent                        Special Agent
                                                                               Pamela D. Hawe                       Donya M. Jackson
     John R. Mech                             Patrick J. Cunningham
     CPA                                      CIA                              (Part-time)




                                                                               Special Agent                        Investigator
     Auditor                                  Auditor
                                              Elizabeth Valentin               Hugh Coughlin                        Barbara A. Hennix
     Cornelia E. Jones
                                              CPA




      Auditor                                 IT Specialist                    Management
     Jennifer Spruill                         Lawrence Olmsted                 Analyst
                                                                               Michael R. Peters




     IT Auditor                               Auditor
     Vacant                                   Vacant




     Management                               Management
     Analyst                                  Analyst
     Peter TerVeer                            Vacant




32 Semiannual Report to the Congress
Inspector General Hotline

     Help Promote Integrity, Economy, and Efficiency

 Report Suspected Fraud, Waste, Abuse, or Mismanagement

          Complaints May be Made Anonymously




                    Inspector General

                    Library of Congress
              101 Independence Avenue, S.E.
                           LM-630

               Washington, DC 20540-1060




      Main Telephone Number:     (202) 707-6314

                 Fax Number:     (202) 707-6032

   Hotline Telephone Number:     (202) 707-6306

              Hotline E-mail:    oighotline@loc.gov

                    P. O. Box:   15051 S.E. Station
                                 Washington, DC 20003


 Any information you provide will be held in confidence.
However, providing your name and a means of communicating
     with you may enhance our ability to investigate.
